rT

C@OCKLE

2311 Douglas Street L ega l Br ie f 8 E-Mail Address:

Omaha, Nebraska 68102-1214 Est, 1923 contact@cocklelegalbriefs.com
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
WILLIAM ANDERSON,
Petitioner,

Vv.
CITY OF MINNEAPOLIS, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of November, 2019, send

out from Omaha, NE 3 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

ROBERT R. HOPPER ERWIN CHEMERINSKY
JASON S. JURAN Counsel of Record
ROBERT R. HOPPER & UNIVERSITY OF CALIFORNIA

ASSOCIATES, LLC BERKELEY SCHOOL OF LAW
333 South Seventh Street, 215 Boalt Hall

Suite 2450 Berkeley, CA 94720
Minneapolis, MN 55402 echemerinsky@
robert.hopper@robertrhopper.com law.berkeley.edu
jason.juran@robertrhopper.com (510) 642-6483

(612) 455-2199
Counsel for Petitioner

Subscribed and sworn to before me this 18th day of November, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska . LG ,

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38990

 
ATTORNEYS FOR RESPONDENTS:

TRACEY N. FUSSY

Counsel of Record
tracey.fussy@minneapolismn.gov
IVAN LUDMER
ivan.ludmer@minneapolismn.gov
Assistant Minneapolis City Attorneys
350 S. Fifth Street, Room 210
Minneapolis, MN 55415
(612) 673-2478

Counsel of Record for Respondents City of Minneapolis,

Shana D. York, Anthony J. Buda, Raul A. Ramos, Daniel J. Tyra,
Shannon L. Miller, Dustin L. Anderson, Scott T. Sutherland,

D. Blaurat, Emily Dunphy, Christopher Karakostas, Arlene M. Johnson

HENRY ADAMS PARKHURST

Sr. Assistant Hennepin County Attorney
2000A Government Center
Minneapolis, MN 55487

(612) 348-5488
henry.parkhurst@hennepin.us

Counsel of Record for Respondents County of Hennepin,
Hennepin Healthcare System, Inc., Brian Mahoney,
Daniel F. Shively Mitchel Morey

ANN E. WALTHER

Rice, Michels & Walther, LLP
10 Second St. N.E., Suite 206
Minneapolis, MN 55413

(612) 676-2300
awalther@ricemichels.com

Counsel of Record for Respondents Joseph McGinness, Calvin Pham,
Matthew Ryan, Matthew George
